TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Interim Results of the 2013 Filing Season



                                          March 29, 2013

                              Reference Number: 2013-40-035




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


INTERIM RESULTS OF THE 2013 FILING                       The IRS is continuing to expand its efforts to
SEASON                                                   detect tax refund fraud. As of March 9, 2013,
                                                         the IRS reports that it identified 220,821 tax
                                                         returns with $1.86 billion claimed in fraudulent
Highlights                                               refunds and prevented the issuance of
                                                         $1.79 billion (96.2 percent) of the fraudulent
Final Report issued on March 29, 2013                    refunds. In addition, the IRS identified and
                                                         confirmed 85,385 fraudulent tax returns
Highlights of Reference Number: 2013-40-035              involving identity theft and identified another
to the Internal Revenue Service Commissioner             87,817 prisoner tax returns for screening.
for the Wage and Investment Division.                    TaxpayersFRQWLQXHWRIUHTXHQWO\ use the split
                                                         UHIXQGRSWLRQWRGLUHFWGeposit a refund into
IMPACT ON TAXPAYERS
                                                         PXOWLSOHEDQNDFFRXQWV. However, VRPH
The filing season, defined as the period from            taxpayers and tax return preparers may
January 1 through mid-April, is critical for the         be misusing this option. TIGTA also found that
IRS because it is during this time that most             some paid tax return preparers continue to be
individuals file their income tax returns and            noncompliant with Earned Income Tax Credit
contact the IRS if they have questions about             due diligence requirements. The IRS also
specific tax laws or filing procedures.                  continues to issue potentially erroneous
                                                         Education Credits for individuals who are not of
WHY TIGTA DID THE AUDIT                                  a traditional age to be pursuing a four-year
Enactment of the American Taxpayer Relief Act            degree or vocational program.
of 2012 on January 2, 2013, significantly                During Fiscal Year 2013, the IRS plans to assist
reduced the time the IRS had to implement the            six million taxpayers through face-to-face
tax changes it contained. In addition, the IRS           contact at the Taxpayer Assistance Centers,
fully migrated the electronic filing of individual       which will be 11.8 percent fewer taxpayers than
tax returns to the Modernized e-File system for          were assisted during Fiscal Year 2012. As of
the 2013 Filing Season. The objective of this            March 9, 2013, approximately 56.5 million
review was to provide selected information               taxpayers contacted the IRS by calling the
related to the IRS’s 2013 Filing Season. TIGTA           various Customer Account Services function
plans to issue the final results of our analysis of      toll-free telephone assistance lines. The IRS is
the 2013 Filing Season in September 2013.                also continuing to expand its online and social
                                                         media presence and now has a mobile
WHAT TIGTA FOUND
                                                         application (IRS2Go); YouTube channels; and
The IRS delayed the start of the filing season           Twitter, Tumblr, and Facebook accounts.
from January 22, 2013, to January 30, 2013, as
a result of the enactment of the American                WHAT TIGTA RECOMMENDED
Taxpayer Relief Act of 2012. Most taxpayers              This report was prepared to provide interim
were able to file their tax return starting on           information only. Therefore, no
January 30, 2013. However, some taxpayers                recommendations were made in the report.
had to wait to file their tax return until early
March 2013. The IRS began accepting all
individual tax returns on March 4, 2013.
As of March 9, 2013, the IRS received more
than 65.1 million tax returns—more than
59.5 million (91 percent) were filed electronically
and more than 5.6 million (9 percent) were filed
on paper. The IRS has issued more than
53.4 million refunds totaling more than
$154 billion.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             March 29, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                  (for) Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Interim Results of the 2013 Filing Season
                              (Audit # 201340009)

 This report presents selected information related to the Internal Revenue Service’s (IRS)
 2013 Filing Season results. As part of our Fiscal Year 2013 Annual Audit Plan, we are
 conducting several ongoing audits that are related to specific issues in this report. This review
 addresses the major management challenge of Implementing the Affordable Care Act and Other
 Tax Law Changes. We will continue to provide IRS management with information on any areas
 of immediate concern throughout our audit process.
 This report was prepared to provide interim information only. Therefore, we made no
 recommendations in the report. However, we provided IRS management officials with an
 advance copy of this report for review and comment prior to issuance.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 If you have any questions, please contact me or Russell P. Martin, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).
                                         Interim Results of the 2013 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Processing Tax Returns................................................................................. Page 3
          Detecting and Preventing Tax Refund Fraud................................................ Page 9
          Providing Customer Service ......................................................................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Glossary of Terms ................................................................ Page 21
                       Interim Results of the 2013 Filing Season




                             Abbreviations

CADE 2                Customer Account Data Engine 2
EFDS                  Electronic Fraud Detection System
e-file(d), e-filing   Electronically file(d); electronic filing
EITC                  Earned Income Tax Credit
IRS                   Internal Revenue Service
MeF                   Modernized e-File
TIGTA                 Treasury Inspector General for Tax Administration
                                     Interim Results of the 2013 Filing Season




                                              Background

The annual tax return filing season1 is a critical period for the Internal Revenue Service (IRS)
because it is when most individuals file their income tax returns and contact the IRS if they have
questions about specific tax laws or filing procedures.
During Calendar Year 2013, the IRS expects to receive                 The IRS expects to receive
148.5 million individual income tax returns. The IRS                     148.5 million individual
estimates that it will process approximately 28.4 million              income tax returns during
paper filed and 120.1 million electronically filed (e-filed)              Calendar Year 2013.
tax returns. In addition, the IRS expects to provide
customer service assistance via telephone, website, social
media, and face-to-face assistance to millions of taxpayers. The IRS is processing individual
income tax returns at five Wage and Investment Division Submission Processing sites during the
2013 Filing Season: Fresno, California; Andover, Massachusetts; Kansas City, Missouri;
Philadelphia, Pennsylvania; and Austin, Texas.
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes. Before the filing season begins, the IRS must identify
new tax law and administrative changes and revise the various tax forms, instructions, and
publications. It must also reprogram its computer systems to ensure that tax returns are
accurately processed. Problems with tax return processing could delay tax refunds, affect the
accuracy of tax accounts, and result in the generation of incorrect notices.

Tax law changes affecting the 2013 Filing Season
          American Taxpayer Relief Act of 2012 2 – Enacted January 2, 2013, this act increased the
           Alternative Minimum Tax exemption and allowed nonrefundable credits up to the full
           amount of the Alternative Minimum Tax. It also permanently indexes the Alternative
           Minimum Tax exemption for inflation and extended many tax credits and deductions that
           expired on December 31, 2011, including the:
           o Deduction for certain expenses incurred by eligible primary and secondary educators.
           o Deduction for qualified tuition and related expenses.
           o Itemized deduction for State and local general sales taxes.
           o Itemized deduction for mortgage insurance premiums.


1
    See Appendix IV for a glossary of terms.
2
    Pub. L. No. 112-240, 126 Stat. 2313 (2013).
                                                                                            Page 1
                                      Interim Results of the 2013 Filing Season




           o Tax exclusion of individual retirement account distributions used for charitable
             purposes.
           o Residential energy credits for individuals.
          Budget Control Act of 20113 – Enacted August 2, 2011, it required Federal agencies to
           implement mandatory budget cuts if Congress did not enact a Fiscal Year 2013 budget by
           March 1, 2013. On March 5, 2013, the IRS announced that it would have to make
           significant cuts in all major program areas, including customer service, for the remainder
           of Fiscal Year 2013 to implement the budget cuts required by the sequester. However,
           the Acting Commissioner stated that employee furloughs would be postponed until after
           the completion of the filing season.
The 2013 Filing Season marks the first filing season in which the Modernized e-File (MeF)
system will be the only system to receive and process individual e-filed tax returns. The MeF
system is a modernized, Internet-based e-file platform that provides real-time processing of tax
returns which improves error detection, standardizes business rules, and expedites return receipt
acknowledgments. The MeF system replaces the IRS’s prior e-filing system (referred to as the
Legacy e-File system). The IRS first began accepting individual tax returns through the MeF
system in February 2010. In addition, the IRS continues to process tax returns for posting using
its Customer Account Data Engine 2 (CADE 2) system. The IRS first began processing tax
returns via CADE 2 for the 2012 Filing Season. This represents a new way of posting taxpayer
data to the Individual Master File (Master File). The CADE 2 system provides the IRS with the
ability to post tax data to the Master File daily. Certain transactions that may require additional
review are identified upfront and are still only posted once per week. The ability to post
information to the Master File on a daily basis enables the IRS to provide tax refunds to
taxpayers more quickly.
The interim 2013 Filing Season results are being presented as of several dates, depending on
when data were available, that include February 28, March 7, March 9, or March 11, 2013. Later
this year, we will issue our 2013 Filing Season report. This review was performed at the
Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission Processing
function offices in Cincinnati, Ohio; the Information Technology organization Headquarters in
Lanham, Maryland; and the Kansas City, Missouri, Submission Processing Site. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

3
    Pub. L. No. 112-25, 125 Stat. 240 (2011).
                                                                                                Page 2
                                 Interim Results of the 2013 Filing Season




                                    Results of Review

Processing Tax Returns
The IRS originally planned to begin processing individual tax returns on January 22, 2013.
However, on January 8, 2013, the IRS announced that it was delaying the start of the filing
season to make the changes necessary to implement provisions of the American Taxpayer Relief
Act of 2012.4 This delay was needed to ensure that tax returns are processed correctly.
According to the IRS, most taxpayers would be able to file their tax returns beginning
January 30, 2013, only one week later than originally planned. However, the IRS stated that
several tax forms required more extensive programming changes. Taxpayers filing with these
forms were advised that they would be unable to file their tax return until late February or
March 2013. According to the IRS, taxpayers claiming credits relating to these forms generally
do not file until later in the filing season, minimizing the impact of the delay for these taxpayers.
We estimate the delay in processing these tax forms could have affected more than 19 million
taxpayers. The forms requiring more extensive programming included:
       Form 5695, Residential Energy Credits.
       Form 4562, Depreciation and Amortization (Including Information on Listed Property).
       Form 3800, General Business Credit.
In addition, on January 28, 2013, the IRS announced that taxpayers filing tax returns that
included a Form 8863, Education Credits (American Opportunity and Lifetime Learning
Credits), would be unable to file their tax return until mid-February.5 The IRS identified
problems during filing season computer program testing with this form, and the delay was
needed to fix the programming errors in its processing system.
The IRS began processing all individual tax returns on March 4, 2013.6 As of March 9, 2013, the
IRS received 65.2 million tax returns. Taxpayers are e-filing a higher proportion of tax returns
than in the 2012 Filing Season. Figure 1 presents comparative filing season statistics as of
March 9, 2013.




4
  IRS News Release IR-2013-2, IRS Plans Jan. 30 Tax Season Opening for 1040 Filers (Jan. 2013).
5
  IRS News Release IR-2013-10, IRS to Accept Returns Claiming Education Credits by Mid-February (Jan. 2013).
6
  IRS News Release IR-2013-25, IRS Now Accepting All 2012 Returns (Mar. 2013).

                                                                                                      Page 3
                                    Interim Results of the 2013 Filing Season




                         Figure 1: Comparative Filing Season Statistics
                                     as of March 9, 20137

                                                                               2012             2013
           Cumulative Filing Season Data
                                                                              Actual           Actual
           Individual Income Tax Returns
           Total Returns Received (000s)                                        71,568           65,156
             Paper Returns Received (000s)                                       7,500             5,655
             E-Filed Returns Received (000s)                                    64,068           59,501
                Practitioner Prepared (000s)                                    38,189           34,099
                Home Computer (000s)                                            25,879           25,402
                Percent of Home Computer Returns                                40.4%             42.7%
                Free File (000s) (also in the Home Computer total)   8
                                                                                 1,888              –
                Fillable Forms (000s) (also in the Home Computer total)           –                 –
           Percent of Returns E-Filed                                           89.5%             91.3%
           Refunds
            Total Number Issued (000s)                                          59,239           53,447
            Total $ (in millions)                                            $174,403         $154,696
            Average $                                                           $2,944           $2,894
            Total Number of Direct Deposits (000s)                              51,392           47,177
            Total Direct Deposit $ (in millions)                             $158,618          $142,861
         Source: IRS 2013 Weekly Filing Season reports. Totals and percentages shown are rounded.

Error in tax preparation software packages causes further delays for individuals
claiming the American Opportunity Tax Credit
On March 12, 2013, the IRS announced that an error in a limited number of software company
products has resulted in further processing delays for some taxpayers who filed tax returns with a
Form 8863 between February 14, 2013, and February 22, 2013. The IRS indicated that the error



7
  When comparing filing season statistics throughout the report, it should be noted that the delay in processing some
tax returns affects the number of tax returns the IRS has received and processed to date.
8
  As of the date of this report, the IRS was unable to provide statistics on taxpayers’ use of Free File and the use of
fillable forms.
                                                                                                               Page 4
                                Interim Results of the 2013 Filing Season




affects approximately 10 percent of the total tax returns claiming the American Opportunity Tax
Credit during this period.
IRS management informed us that beginning with the 2013 Filing Season, the IRS is requiring
software companies to transmit a “yes” or “no” to specific questions on the Form 8863 related to
the American Opportunity Tax Credit. These questions relate to specific requirements that need
to be met to qualify for the Credit. However, a limited number of software companies
incorrectly programmed the form to replace taxpayers’ “no” answers with a blank when
transmitting the tax returns to the IRS. As a result, these tax returns were identified by the IRS’s
error processes as having an incomplete Form 8863 (IRS programming requires either a yes or
no, the field cannot be blank). The IRS suspended the processing of these tax returns while it
corresponds with the taxpayer to obtain the missing information. According to the IRS, the time
period for taxpayer response and correcting the missing information can take up to eight weeks.
On March 26, 2013, the IRS announced that due to the steps it took to help these taxpayers, it has
been able to resolve these cases more quickly than anticipated – in two-to-four weeks.

The MeF system is used to process e-file tax returns
The 2013 Filing Season marks the first time the IRS will accept and process all e-filed tax
returns using the MeF system. The IRS is monitoring the performance of the MeF system and
making adjustments as needed to ensure that the system is processing tax returns efficiently. IRS
management confirmed that the MeF system is currently accepting tax returns, providing tax
return acknowledgements, and updating downstream processing databases as intended.
As of March 9, 2013, the IRS received 62.1 million tax returns through the MeF system.
Figure 2 presents a comparison of the number of tax returns processed through the MeF system
for Processing Years 2012 and 2013 as of March 9, 2013.
              Figure 2: Comparison of MeF System Tax Return Volumes
                               (as of March 9, 2013)

              Number of Returns Processed                         2012            2013

              Total Number Received (in thousands)               75,133           62,143

                    Number Accepted (in thousands)               65,906           54,464

                    Number Rejected (in thousands)                9,227            7,679

            Source: IRS 2013 Filing Season reports as of March 9, 2013. Totals shown are rounded.

We plan to continue our evaluation of the IRS’s implementation of the MeF system, and we will
issue a separate audit report on these results. We expect to issue that report in August 2013.



                                                                                                    Page 5
                                  Interim Results of the 2013 Filing Season




The IRS continues to post tax returns daily through the CADE 2 system
The IRS is continuing to process tax returns using its CADE 2 system. The IRS first began
processing tax returns via the CADE 2 for the 2012 Filing Season. In addition to expanding the
daily processing of individual tax returns, the CADE 2 will result in a single relational database
that houses all individual taxpayer accounts. This database will replace the Master File and serve
as a central source of individual tax return data, making reporting and retrieval of taxpayer
account data faster and more efficient. In July 2012, we reported that the IRS’s planning for the
implementation of daily processing was sufficient to ensure tax account transactions are
processed to the Master File on a daily basis.9 In addition, we determined that transactions were
posting correctly to the Master File.
The next phase of the IRS’s implementation of the CADE 2 is the use of the relational CADE 2
database to house all individual tax accounts. The IRS is currently using the CADE 2 database
as the source for some information within other IRS systems. However, the Master File
continues to be the official repository of individual tax accounts for the 2013 Filing Season.

The savings bond and split refund options continue to be used frequently, but
some taxpayers may be misusing the split refund option
Through March 7, 2013, a total of 21,859 individuals requested to convert tax refunds totaling
more than $7.8 million into savings bonds. In addition, 527,872 individuals chose to split tax
refunds totaling more than $2.3 billion between two or three different checking and savings
accounts. Figure 3 shows a comparison of taxpayers’ use of the split refund and savings bond
options for Processing Years 2012 and 2013 as of March 7, 2013.




9
  Treasury Inspector General for Tax Administration (TIGTA), Ref. No. 2012-40-085, The Internal Revenue Service
Is Making Progress Toward Implementing Daily Processing of Individual Tax Returns (July 2012).
                                                                                                       Page 6
                                Interim Results of the 2013 Filing Season




                   Figure 3: Use of Savings Bonds and Split Refunds
                          for Processing Years 2012 and 2013
                                  (as of March 7, 2013)

              Savings Bonds                                 2012 Actual       2013 Actual

              Total Returns                                      26,238           21,859

              Total Refunds to Bonds $ (in thousands)            $8,800           $7,900

              Split Refunds

              Total Returns                                    662,983          527,872

              Total Refunds Split $ (in thousands)          $2,900,000       $2,350,000

             Source: IRS 2013 Weekly Filing Season reports as of March 7, 2013. Totals shown
             are rounded.

However, our preliminary analysis of Form 8888, Allocation of Refund (Including Savings Bond
Purchases), raises concerns about the potential misuse of the split refund option to direct
multiple tax refunds to one bank account. We identified 288,187 tax returns with a Form 8888
requesting direct deposits totaling more than $113 million into 31,934 bank accounts as of
March 7, 2013. Each of the 31,934 bank accounts we identified has had three or more
Form 8888 deposits from different taxpayers into these accounts during this filing season. We
determined that 175,948 (61 percent) of the 288,187 tax returns were prepared by paid tax return
preparers.
Form 8888 instructions state that the form is to be used only for the deposit of a tax refund to an
account in the taxpayer’s name. Taxpayers are not to use Form 8888 to direct a portion of a tax
refund to the tax return preparer for payment of services rendered or any other purpose. Despite
this, 5,114 of the 31,934 bank accounts listed on the Forms 8888 were associated with 4,817 paid
tax return preparers.
We notified the IRS of our concerns on February 8, 2013. IRS management agreed that multiple
Form 8888 direct deposits from different taxpayers were being made to the same bank accounts.
The IRS indicated it will review tax return preparer data and will take necessary enforcement
actions. We will continue to monitor split refunds throughout the remainder of the filing season
to identify potential noncompliance with the use of these types of tax refund deposits.

Ensuring accuracy of tax returns during processing
The delay in processing tax returns delayed our assessment of the IRS’s accuracy of processing
tax returns involving those credits that were extended as a result of the American Taxpayer
Relief Act of 2012 as well as the programming relating to those forms that required redesign.
                                                                                               Page 7
                                  Interim Results of the 2013 Filing Season




We will provide the results of this assessment in our 2013 Filing Season report that will be
issued later this year.
As part of our review, we are also evaluating the effectiveness of the IRS’s actions to address
errors we identified in our 2012 Filing Season review.10 Our preliminary review indicates some
paid tax return preparers continue to be noncompliant with the Earned Income Tax Credit (EITC)
due diligence requirements, and the IRS is continuing to issue potentially erroneous Education
Credits.
        Many paid tax return preparers continue to be noncompliant with the Form 8867,
         Paid Preparer’s Earned Income Checklist, requirements – Tax return preparer due
         diligence requirements were put in place for the 2012 Filing Season in an attempt to
         promote the accurate filing of EITC claims. Currently, the IRS estimates between
         $11.6 billion and $13.6 billion in EITC claims are paid in error. Paid tax return preparers
         are required to attach a Form 8867 to each tax return they file with an EITC claim. Tax
         return preparers may be assessed a $500 penalty for each tax return filed with a missing
         Form 8867. As of March 7, 2013, we identified 80,585 paid tax return preparers filing
         612,622 tax returns claiming nearly $1.9 billion in EITC without the required Form 8867
         attached to the tax return. This equates to more than $306 million in penalties that can be
         assessed by the IRS. The IRS indicated that it is accumulating information that identifies
         tax returns filed without a Form 8867 throughout the filing season and will assess EITC
         penalties against paid tax return preparers at the completion of the filing season.
        The IRS is continuing to issue potentially erroneous Education Credits – Taxpayers
         can receive the American Opportunity Tax Credit for the first four years of
         post-secondary education, including graduate studies or vocational certification.
         Taxpayers can receive a credit of up to $2,500 per student for qualified higher education
         expenses. The first 40 percent of the credit ($1,000) is fully refundable. In our
         2012 Filing Season report, we identified 109,618 taxpayers as of May 2, 2012, who
         received refundable American Opportunity Tax Credits for Tax Year 2011 totaling more
         than $159 million for students who were of an age that are unlikely to be enrolled in a
         four-year college degree program.
         As of March 7, 2013, we identified 10,659 taxpayers who filed tax returns claiming
         Education Credits11 totaling $20.6 million for individuals younger than 14 and
         7,402 taxpayers claiming credits totaling $9.4 million for individuals older than 65.
         Although the law does not limit the American Opportunity Tax Credit to individuals of
         specific ages, we believe these individuals are unlikely to be pursuing a four-year degree
         or vocational certification.

10
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax
Credits Were Processed Correctly During the 2012 Filing Season (Sept. 2012).
11
   Education Credits include the American Opportunity Tax Credit and the Lifetime Learning Tax Credit.
                                                                                                       Page 8
                                    Interim Results of the 2013 Filing Season




In addition, in our 2012 Filing Season report, we identified that the IRS was not accurately
processing First-Time Homebuyer Credit (Homebuyer Credit) repayments and dispositions.
Taxpayers who received the Homebuyer Credit for a home purchased prior to Calendar
Year 2009 are required to repay the credit annually over 15 years. Any taxpayer who disposes of
a home within three years of receiving the credit for its purchase must repay the full amount of
the credit in the year the home was disposed. We are in the process of reviewing tax return data
to determine if the IRS has improved its processing of these payments. As of March 7, 2013, we
identified a total of 392,803 taxpayers reporting $125.3 million in Homebuyer Credit repayments
for credits received prior to January 1, 2009. An additional 11,208 taxpayers reported
$3.4 million in repayments associated with the disposition of a home for which the credit was
received. We will provide the results of this assessment in our 2013 Filing Season report that
will be issued later this year.

Detecting and Preventing Tax Refund Fraud
As of March 9, 2013, the IRS reported that it identified 220,821 tax returns with $1.86 billion12
claimed in fraudulent refunds and prevented the issuance of $1.79 billion (96.2 percent) of those
refunds.13 Figure 4 shows the number of fraudulent tax returns identified by the IRS, including
prisoner and identity theft tax returns, for Processing Years 2010 through 2012 as well as the
refund amounts that were claimed and stopped.
                         Figure 4: Fraudulent Returns and Refunds Identified
                         and Stopped in Processing Years 2010 Through 2012

                      Number of                                          Amount of
                      Fraudulent               Number of                 Fraudulent              Amount of
     Processing     Refund Returns         Fraudulent Refund               Refunds               Fraudulent
        Year           Identified           Returns Stopped               Identified          Refunds Stopped

       2010              971,511                   881,303             $7,300,996,194           $6,931,931,314

       2011            2,176,657                 1,756,242           $16,186,395,218           $14,353,795,007

       2012            3,422,505                 3,110,788           $20,721,203,369           $19,247,812,922

 Source: IRS fraudulent tax return statistics for Processing Years 2010 through 2012.




12
   The IRS indicated that of the $1.86 billion claimed and $1.79 billion stopped in fraudulent refunds, ***1******
*********************1***************************************.
13
   The delay in processing some tax returns has contributed to the decrease in the number of fraudulent tax returns
the IRS has identified as of this date.
                                                                                                             Page 9
                               Interim Results of the 2013 Filing Season




Detection of tax returns involving identity theft
The IRS continues to expand identity theft filters to identify fraudulent tax returns at the time
they are processed. In the 2012 Filing Season, the IRS created identity theft filters to identify
potentially fraudulent tax returns and prevent the issuance of fraudulent tax refunds. The identity
theft filters incorporate criteria based on characteristics of confirmed identity theft tax returns.
These characteristics include amounts claimed for income and withholding, filing requirements,
prisoner status, taxpayer age, filing history, etc.
Tax returns identified by these filters are held during processing until the IRS can verify the
taxpayer’s identity. The IRS attempts to contact the individual who filed the tax return, and if
this individual’s identity cannot be confirmed, the IRS removes the tax return from processing.
This prevents the issuance of many fraudulent tax refunds. As of February 28, 2013, the IRS
reported that it identified and confirmed 85,385 fraudulent tax returns and prevented the issuance
of $489 million in fraudulent tax refunds as a result of the identity theft filters.
Figure 5 shows the number of identity theft tax returns the IRS identified and confirmed as
fraudulent in Processing Years 2011 through 2013.
                    Figure 5: Identity Theft Tax Returns Confirmed
                 as Fraudulent in Processing Years 2011 Through 2013
                                (as of February 28, 2013)

                           Processing             Number of Identity Theft
                              Year                      Returns

                               2011                          175,218

                               2012                          185,657

                               2013                           85,385

                        Source: IRS fraudulent tax return statistics for Processing
                        Years 2011 through 2013 as of February 28, 2013.

We are currently conducting a review of the IRS’s efforts to detect and prevent identity theft.
We are also conducting a separate review of the IRS’s efforts to assist victims of identity theft.
We will issue these reports later this fiscal year.

Screening of prisoner tax returns
As of March 9, 2013, the IRS reports that it identified 87,817 potentially fraudulent tax returns
filed by prisoners for screening. Figure 6 shows the number of prisoner tax returns identified for
screening in Processing Years 2011 through 2013.


                                                                                            Page 10
                                    Interim Results of the 2013 Filing Season




                          Figure 6: Prisoner Tax Returns Identified for
                        Screening in Processing Years 2011 Through 2013
                                      (as of March 9, 2013)

                                                          Number of Prisoner
                                Processing               Tax Returns Identified
                                   Year                      for Screening

                                    2011                         111,698

                                    2012                         144,848

                                    2013                          87,817

                             Source: IRS fraudulent tax return statistics for Processing
                             Years 2011 through 2013 as of March 9, 2013.

We plan to conduct a separate review of the IRS’s efforts to improve the detection and
prevention of prisoner tax fraud later this fiscal year.

Electronic Fraud Detection System (EFDS) programming errors resulted in some
tax returns not being screened for fraud
In a separate review of the IRS’s wage and withholding verification process, we identified
320 Tax Year 2010 tax returns that did not receive an EFDS score.14 We brought this to
management’s attention, and the IRS determined that errors in the processes it used to load tax
return data into the EFDS were resulting in some tax returns not receiving an EFDS fraud score.
The IRS issued a system alert on March 1, 2013, indicating that 332,835 Tax Year 2012 paper
tax returns also had not received an EFDS score. IRS management indicated that programming
changes were made at the beginning of the 2013 Filing Season that eliminated the risk of these
errors occurring on e-filed tax returns. However, the IRS needs additional time to correct
programming errors affecting paper tax returns. IRS management stated that they are in the
process of updating the computer programming and have established interim procedures to
ensure that all tax returns will be evaluated by the EFDS. The IRS estimates that the
programming errors affecting paper tax returns will be corrected by the end of March 2013.
Individual tax returns are sent through the IRS’s EFDS and receive a data-mining score based on
the characteristics of the tax return and other data. For those tax returns meeting a certain score,
the tax return is sent to an IRS tax examiner to screen the tax return for fraud potential. For
those tax returns identified as not being scored within the EFDS, the tax return will not be sent to
screening for fraud potential regardless of whether the tax return may include questionable
characteristics.

14
     TIGTA, Audit No. 201240021, Wage and Withholding Verification for Individual Tax Returns (ongoing audit).
                                                                                                        Page 11
                                   Interim Results of the 2013 Filing Season




If a tax return is selected for further verification, the tax refund is held until employers or third
parties are contacted to verify wage information on the tax return. If the verification process is
not completed within a certain time period, the tax refund is automatically released. The IRS
monitors these tax returns and extends the hold on the tax refund to prevent the automatic release
of the refund if additional time is needed to verify the refund. In general, if the employee
concludes that a tax return contains false information, e.g., false or inflated wages, the tax return
is either resolved in the Accounts Management function or referred for deficiency processing.
Tax returns with refundable credits, such as the EITC, and tax returns for which the refunds were
issued must be referred for deficiency processing because the law requires the IRS to follow
deficiency procedures before making an assessment in these cases.

Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and/or Volunteer Program sites, and self-assistance through
IRS.gov and social media channels.

Face-to-face assistance at the Taxpayer Assistance Centers15
The IRS plans to assist six million taxpayers during Fiscal Year 2013, which will be 11.8 percent
fewer taxpayers than were assisted in Fiscal Year 2012. The Fiscal Year 2013 plan was based on
the assumption of limited seasonal staff support and the continuing reduction of permanent staff
as a result of the hiring freeze and buy-out authority. Figure 7 shows the number of contacts by
product line at the Taxpayer Assistance Centers for Fiscal Years 2010 through 2013.




15
  The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both account and tax
law questions, as well as receive assistance in preparing their tax returns.
                                                                                                        Page 12
                                    Interim Results of the 2013 Filing Season




          Figure 7: Contacts for Fiscal Years 2010 Through 2013 (in millions)

                                                                     Fiscal Year
          Contacts/Product Lines
                                                                                              2013
                                                  2010           2011           2012       Projections

          Tax Accounts Contacts                    3.5             3.7           4.3            3.8

          Forms Contacts                           0.7             0.6           0.6            0.5

          Other Contacts16                         1.5             1.5           1.7            1.5

          Tax Law Contacts                         0.3             0.3           0.2            0.2

          Tax Returns Prepared17                   0.4             0.3          N/A            N/A

          Totals                                   6.4             6.4           6.8            6.0

        Source: IRS management information reports.

Toll-free telephone assistance
As of March 9, 2013, approximately 56.5 million taxpayers contacted the IRS by calling the
various customer service toll-free telephone assistance lines seeking help in understanding the
tax law and meeting their tax obligations.18 IRS assistors have answered 8.3 million calls and
have achieved a 67.8 percent Level of Service19 with a 14.2 minute Average Speed of Answer.
The Level of Service for Fiscal Year 2012 was 66.8 percent. The IRS forecasted a 70.0 percent
Level of Service for Fiscal Year 2013. This decrease affects customers by having longer wait
times, increased abandons, and an increased number of customers redialing the IRS toll-free
lines for service. Figure 8 shows a comparison of IRS toll-free telephone statistics through
March 9, 2013, for Fiscal Years 2010 through 2013.

16
   Other Contacts includes Form 2063, U.S. Departing Alien Income Tax Statement, date-stamping tax returns
brought in by taxpayers, screening taxpayers for eligibility of service, scheduling appointments, and helping
taxpayers with general information such as addresses and directions to other IRS offices or other Federal
Government agencies.
17
   In Fiscal Years 2012 and 2013, Tax Returns Prepared is included in Other Contacts.
18
   The IRS refers to the suite of 29 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
19
   The IRS’s Level of Service measure only reflects the relative success rate of taxpayers who call the IRS’s
29 toll-free telephone lines seeking assistance from an assistor. It can be managed by increasing or decreasing the
number of blocked calls, thus allowing more or fewer callers into the queue. We previously reported this
performance measure does not accurately reflect total call demand and the taxpayer experience (TIGTA, Ref. No.
2009-40-127, Higher Than Planned Call Demand Reduced Toll-Free Telephone Access for the 2009 Filing Season
(Sept. 2009)).
                                                                                                           Page 13
                                    Interim Results of the 2013 Filing Season




                              Figure 8: Toll-Free Telephone Statistics
                                for Fiscal Years 2010 Through 2013
                                        as of March 9, 2013

                                                                 Fiscal Year
        Statistic
                                        2010              2011              2012               2013

        Calls Answered              9,641,999         9,560,407         8,252,582           8,269,656

        Level of Service                74.2%             72.6%             66.8%               67.8%

        Average Speed of
                                           594               618               956                 852
        Answer

         Source: IRS management information reports as of March 9, 2013.

Tax preparation assistance at Volunteer Program sites
The Volunteer Program continues to play an important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
persons with disabilities, rural, Native Americans, and limited-English-proficient taxpayers. As
of March 17, 2013, more than two million tax returns have been prepared at the 13,081
Volunteer Program sites nationwide. Figure 9 shows the number of tax returns prepared by
volunteers from Fiscal Years 2010 through 2012.
                               Figure 9: Volunteer Program Statistics
                                 for Fiscal Years 2010 Through 2012

                                                                                      Percentage Change
                                Fiscal Year        Fiscal Year       Fiscal Year      (Fiscal Year 2011 to
                                   2010               2011              2012           Fiscal Year 2012)

        Tax Returns           3,085,512           3,188,524           3,264,997                 2.4%

        Volunteers                87,602              88,527             98,978                11.8%

        Sites                     12,326              12,486             13,14320               5.3%

         Source: IRS management information system containing Fiscal Years 2010 through 2012 information.
         Percentages are rounded.



20
   The Tax Returns and Sites totals do not include tax returns prepared using Facilitated Self-Assistance or those
sites.
                                                                                                             Page 14
                                   Interim Results of the 2013 Filing Season




We are conducting a separate review of the accuracy of tax return preparation at Volunteer
Program sites. We plan to visit 39 Volunteer Income Tax Assistance and Tax Counseling for the
Elderly sites to determine if taxpayers receive quality service, including accurate preparation of
their individual income tax returns. We developed scenarios designed to test quality controls and
training the volunteers received in preparation for the 2013 Filing Season. We expect to issue
our report in September 2013.

Self-assistance through IRS.gov and social media channels
The IRS is committed to helping taxpayers obtain the information they need to help them comply
with the tax law. The IRS is offering more self-assistance options that taxpayers can access
                                24 hours a day, seven days a week. For example, the IRS offers
                                IRS2Go, which is a mobile application that lets taxpayers
                                interact with the IRS using their mobile device to access
                                information and a limited number of IRS tools. In addition, the
                                IRS uses various forms of social media including YouTube,
Twitter, Tumblr, and Facebook. As of March 21, 2013, the IRS has had more than 1.9 million
new downloads of its IRS2Go mobile application, more than 1.5 million new views of IRS
YouTube videos, and a 31 percent increase in Twitter followers.
Foremost is the IRS’s public Internet site, IRS.gov. In spite of the late start to the filing season,
as of March 9, 2013, the IRS reports a 21.1 percent increase in the number of visits to IRS.gov
over the same period in the prior filing season. It also reports a 41.7 percent increase in the
number of taxpayers obtaining their refund information online via the “Where’s My Refund” 21
option found on IRS.gov. Figure 10 shows the year-to-date comparisons of various IRS.gov
activity levels for the 2010 through 2013 Filing Seasons.
                          Figure 10: Year-to-Date Comparisons of the
                              2010 Through 2013 Filing Seasons22

                                     2010 Actual        2011 Actual       2012 Actual       2013 Actual

       IRS.gov Visits               109,663,929         119,793,481       167,038,289      202,327,795

       “Where’s My Refund?”          37,217,050          43,309,204        86,861,305      123,090,163

      Source: IRS 2010 through 2013 Filing Season Weekly reports.


21
   The “Where’s My Refund” feature suffered multiple outages at the beginning of the filing season. These outages
ranged from a few seconds to a few hours. IRS management indicated that these outages were related to the
significant increase in demand for the feature. The IRS set up a special team to address the outages.
22
   The 2010 Filing Season is through the week ending March 6, the 2011 Filing Season is through the week ending
March 5, the 2012 Filing Season is through the week ending March 3, and the 2013 Filing Season is through the
week ending March 9.
                                                                                                        Page 15
                            Interim Results of the 2013 Filing Season




In addition, the IRS continues to offer the First-Time Homebuyer Credit Account Look-Up
feature available on IRS.gov. This feature allows taxpayers to see the total amount of
Homebuyer Credit they received, the amount they have paid back to date, the balance of their
Homebuyer Credit, and their annual installment repayment amount. The Look-Up tool will help
taxpayers determine whether they need to include any Homebuyer Credit repayment on their
current year tax return.




                                                                                     Page 16
                                  Interim Results of the 2013 Filing Season




                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to provide selected information related to the IRS’s 2013 Filing
Season1 results as of March 9, 2013. To accomplish our objective, we:
I.      Identified volumes of paper and e-filed tax returns received through March 9, 2013, from
        the IRS Weekly Filing Season reports that provided a comparison to the 2012 Filing
        Season receipts for the same period.
II.     Identified selected tax legislation that affects the processing of individual taxpayer
        returns during the 2013 Filing Season.
III.    Identified MeF system processing statistics for the 2013 Filing Season.
IV.     Determined the status of the Paid Preparer EITC due diligence program. Using the IRS’s
        Individual Return Transaction File, we determined that 80,585 paid tax return preparers
        have filed 612,622 tax returns claiming nearly $1.9 billion in EITC without the required
        Form 8867, Paid Preparer’s Earned Income Checklist, as of March 7, 2013.2
V.      Followed up on findings previously reported by the Treasury Inspector General for Tax
        Administration to ensure that the IRS has taken the agreed upon action to resolve the
        issues.3
        A. Determined if the IRS has improved the processing of Homebuyer Credit repayments
           and dispositions. Using the Individual Return Transaction File, we identified
           392,803 individuals who made $125.3 million in Homebuyer Credit installment
           payments and 11,208 individuals who repaid $3.4 million in Homebuyer Credits in
           conjunction with a disposition as of March 7, 2013.
        B. Determined if taxpayers are continuing to receive Education Credits when the student
           is of an age unlikely to be enrolled in a four-year college degree program (younger
           than 14 or older than 65). Using the Individual Return Transaction file, we identified
           10,659 tax returns claiming Education Credits totaling $20.6 million for individuals
           who are younger than age 14. We also identified 7,402 tax returns claiming
           Education Credits totaling $9.4 million for individuals who are older than age 65.


1
  See Appendix IV for a glossary of terms.
2
  Judgmental samples were selected and reviewed to ensure that the amounts presented were supported by external
sources.
3
  TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not All Tax
Credits Were Processed Correctly During the 2012 Filing Season (Sept. 2012).
                                                                                                        Page 17
                               Interim Results of the 2013 Filing Season




VI.     Compiled statistical information that is of interest to external stakeholders.
        A. Quantified fraudulent tax returns, tax returns subject to identity theft, and tax returns
           filed by prisoners.
        B. Determined whether individuals are using the savings bond option for direct purchase
           of savings bonds from their refunds.
        C. Determined whether individuals have significantly increased their use of the split
           refund option for depositing their refunds.
VII.    Identified results for the IRS Taxpayer Assistance Center Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
           Taxpayer Assistance Centers.
        B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the
           2010 through 2013 Filing Seasons.
VIII.   Identified results for the IRS Toll-Free Telephone Assistance Program by reviewing
        Performance Templates and Executive Level Summary reports from the Enterprise
        Telephone Data Warehouse for results for the filing season.
IX.     Identified results for IRS self-assistance through IRS.gov from the IRS Weekly Filing
        Season Report of IRS.gov activity levels for the 2010 through 2013 Filing Seasons. In
        addition, we identified the number of hits the “Where’s My Refund” feature has received
        and compared the results to the 2010 through 2012 Filing Seasons.
X.      Identified results for tax preparation assistance at Volunteer Program sites by quantifying
        the number of volunteers, volunteer sites, and number of returns prepared by volunteers
        for Fiscal Year 2012. We compared those figures to Fiscal Years 2010 through 2011.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2013 Filing Season. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2013 Filing Season.




                                                                                             Page 18
                             Interim Results of the 2013 Filing Season




                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
Roy E. Thompson, Audit Manager
Glory Jampetero, Lead Auditor
Lance J. Welling, Lead Auditor
Jennie G. Choo, Senior Auditor
Linna K. Hung, Senior Auditor
Laura Paulsen, Senior Auditor
Mark V. Willoughby, Senior Auditor
Nikole L. Smith, Auditor
Michelle S. Cove, Assistant Director, Information Technology
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Brian W. Hattery, Information Technology Specialist
Donald J. Meyer, Information Technology Specialist
Steven E. Vandigriff, Information Technology Specialist




                                                                                          Page 19
                            Interim Results of the 2013 Filing Season




                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 20
                        Interim Results of the 2013 Filing Season




                                                                             Appendix IV

                           Glossary of Terms

Average Speed of       The average number of seconds taxpayers waited in the assistor
Answer                 queue (on hold) before receiving services.
Earned Income Tax      A refundable Federal tax credit for low-income working
Credit                 individuals and families.
Electronic Fraud       An automated system used to maximize fraud detection at the time
Detection System       tax returns are filed to eliminate the issuance of questionable
                       refunds.
Enterprise Telephone   The official source for all data related to toll-free telephone system
Data Warehouse         measures and indicators.
Facilitated            Facilitated Self-Assistance is an initiative to provide self-help
Self-Assistance        assistance kiosks at Taxpayer Assistance Centers. The kiosks can
                       be used by taxpayers to access IRS.gov to file their tax returns,
                       print tax forms and publications, or conduct tax research.
Filing Season          The period from January 1 through mid-April when most
                       individual income tax returns are filed.
First-Time             A refundable Federal tax credit for individuals who purchase a
Homebuyer Credit       home.
Fiscal Year            A 12-consecutive-month period ending on the last day of any
                       month, except December. The Federal Government’s fiscal year
                       begins on October 1 and ends on September 30.
Free File              A free Federal tax preparation and e-filing program for eligible
                       taxpayers developed through a partnership between the IRS and
                       the Free File Alliance, LLC. The Alliance is a group of private
                       sector tax software companies.
Individual Master      The IRS database that maintains transactions or records of
File                   individual tax accounts.
Individual Return      A database the IRS maintains that contains information on the
Transaction File       individual tax returns it receives.



                                                                                       Page 21
                       Interim Results of the 2013 Filing Season




Level of Service      The primary measure of service to taxpayers. It is the relative
                      success rate of taxpayers who call for live assistance on the IRS
                      toll-free telephone lines.
Processing Year       The calendar year in which the return or document is processed by
                      the IRS.
Submission            The data processing arm of the IRS. The sites process paper and
Processing Site       electronic submissions, correct errors, and forward data to the
                      Computing Centers for analysis and posting to taxpayer accounts.
Tax Year              The 12-month period for which tax is calculated. For most
                      individual taxpayers, the tax year is synonymous with the calendar
                      year.
Taxpayer Assistance   Walk-in sites where taxpayers can obtain answers to both account
Centers               and tax law questions, as well as receive assistance in preparing
                      their tax returns.
Volunteer Program     Includes the Volunteer Income Tax Assistance Program, including
                      the Volunteer Income Tax Assistance Grant Program and the Tax
                      Counseling for the Elderly Program. The Volunteer Program
                      provides free tax assistance to persons with low-to-moderate
                      income (generally $50,000 and below), the elderly, persons with
                      disabilities, and persons with limited-English proficiency.




                                                                                    Page 22
